ER-B-99-03




          AUDIT
         REPORT

                                 WESTINGHOUSE SAVANNAH
                                 RIVER COMPANY’S HEALTH
                                      BENEFIT PLAN




                                           JANUARY 1999




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                      DEPARTMENT OF ENERGY
                                         Washington, DC 20585
                                           January 25, 1999

MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE

FROM:          Terry L. Brendlinger, Manager
               Eastern Regional Audit Office
               Office of Inspector General

SUBJECT:       INFORMATION: Audit Report on "Westinghouse Savannah River Company's
               Health Benefit Plan"


BACKGROUND

Westinghouse Savannah River Company (Westinghouse) manages and operates the Savannah River
Site, located in Aiken, South Carolina, for the U.S. Department of Energy (Department).
Westinghouse was self-insured for health benefits and contracted with Aetna Insurance to administer
the plan (service payments to providers) from Calendar Year (CY) 1989 through 1996.
Westinghouse’s administrative service contract with Aetna Insurance expired on December 31, 1996.
Westinghouse chose Blue Cross/Blue Shield of South Carolina (BC/BS) to administer its health plan,
effective January 1, 1997.

After the contract was awarded to BC/BS, 47 health care providers in the Aiken area submitted their
resignations as preferred providers for BC/BS. The health care providers complained that the fees
received from BC/BS were less than they were previously paid through Aetna Insurance. As a result,
Westinghouse instructed BC/BS to negotiate a modified fee schedule for all the health care providers
in the Aiken area.

The audit objective was to determine whether the health benefit costs incurred by Westinghouse
under the BC/BS contract were necessary and reasonable.


RESULTS OF AUDIT

A portion of Westinghouse's 1997 and 1998 health benefit costs were unnecessary and unreasonable.
Westinghouse instructed BC/BS to pay health care providers in the Aiken area at higher rates than
BC/BS paid its other preferred providers in South Carolina. This condition existed because
Westinghouse did not want its employees to be inconvenienced and it wanted to protect the Aiken
Regional Medical Centers from financial difficulty. As a result of the higher rates paid to Aiken area
health care providers, the Department will incur unnecessary and unreasonable costs of about
$1.7 million over a 3-year period. We recommended that the Manager, Savannah River Operations
Office (1) recoup health benefit costs that are incurred under Westinghouse's contract with BC/BS
and determined to be unallowable by the Contracting Officer, and (2) limit future reimbursements for
health benefits to the standard BC/BS rates.
                                                   -2-


   MANAGEMENT REACTION

   Management did not concur with the finding or Recommendation 1. Management did not consider
   any of the health benefit costs paid by Westinghouse to be unnecessary or unreasonable. Management
   did concur with Recommendation 2, however, stating that reimbursements for health benefits will be
   limited to the standard BC/BS rates and agreements in South Carolina and Georgia beginning
   January 1, 2000.




Page 10
WESTINGHOUSE SAVANNAH RIVER COMPANY'S HEALTH
BENEFIT PLAN


TABLE OF
CONTENTS



               Overview

               Introduction and Objective .........................................................1

               Conclusions and Observations.................................................. 2


               Rates Paid to Aiken-Area Health Care Providers

               Details of Finding ......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology ............................................................8
Overview

INTRODUCTION AND   Westinghouse manages and operates the Department’s Savannah River
OBJECTIVE          Site, located near Aiken, South Carolina and Augusta, Georgia.
                   Westinghouse was self-insured for health benefits and contracted with
                   Aetna Insurance to administer the plan from CY 1989 through CY 1996.
                   In early 1996, the Operations Office and Westinghouse agreed to solicit
                   competitive bids for the administration of its health benefit plan in an
                   effort to reduce overall costs.

                   Westinghouse chose BC/BS to administer its health plan, effective
                   January 1, 1997. This selection was based on three factors: (1) the
                   administrative fee charged by BC/BS was lower than other vendors;
                   (2) the discount negotiated by BC/BS with the health care providers was
                   higher than other vendors who responded; and (3) the number of health
                   care providers in the Aiken/Augusta area within BC/BS’s established
                   health care network equaled or exceeded other vendors. Westinghouse
                   estimated that the new contract reduced overall cost by $8.5 million
                   during CY 1997.

                   Westinghouse employees use the medical services of doctors and
                   hospitals located in the Aiken/Augusta area which includes Aiken
                   County, South Carolina and Richmond County, Georgia. There are
                   5 hospitals and over 700 health care providers which are BC/BS
                   preferred providers in these 2 counties. In Richmond County, the
                   BC/BS network contains 4 of the 5 hospitals and over 600 medical
                   personnel.

                   After the contract was awarded, 47 health care providers in the Aiken
                   area submitted their resignations as preferred providers for BC/BS. The
                   health care providers complained that the fees received from
                   BC/BS were less than they were previously paid through Aetna
                   Insurance.

                   In December 1996, Westinghouse instructed BC/BS to negotiate a
                   modified fee schedule for all the health care providers in the Aiken area.
                   BC/BS negotiated a modified fee schedule for Westinghouse not to
                   exceed Aetna’s 1996 fee levels, declining over a 3-year period. The
                   1997 fees for all procedures were set at BC/BS 1996 levels plus 20
                   percent, not to exceed Aetna’s 1996 payment level. The 1998 fees were
                   set at BC/BS 1996 fee levels plus 15 percent. Finally, the 1999 fees
                   were set at BC/BS 1996 levels plus 10 percent.




Page 1                                                   Westinghouse Savannah River
                                                         Company's Health Benefit Plan
                  The audit objective was to determine whether the health benefit costs
                  incurred by Westinghouse under the BC/BS contract were necessary and
                  reasonable.
CONCLUSIONS AND
                  A portion of Westinghouse's 1997 and 1998 health benefit costs were
OBSERVATIONS
                  unnecessary and unreasonable. Westinghouse instructed BC/BS to pay
                  health care providers in the Aiken area at higher rates than BC/BS paid
                  its other preferred providers in South Carolina. This condition existed
                  because Westinghouse did not want its employees to be inconvenienced
                  and it wanted to protect the Aiken Regional Medical Centers from
                  financial difficulty. As a result of the higher rates paid to Aiken-area
                  health care providers, the Department will incur, over a 3-year period,
                  about $1.7 million in health benefit costs that are unnecessary and
                  unreasonable.

                  The audit identified an issue that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                  ________(Signed)______
                                                   Office of Inspector General




Page 2                                                  Westinghouse Savannah River
                                                        Company's Health Benefit Plan
RATES PAID TO AIKEN-AREA HEALTH CARE PROVIDERS


Cost Increases Were     Westinghouse authorized BC/BS to pay additional fees to Aiken-area
Unnecessary and         health care providers that were neither necessary nor reasonable. The
Unreasonable            additional fees were unnecessary because all the medical services could
                        have been obtained from BC/BS health care providers at preferred rates.
                        Other health care providers in the BC/BS preferred provider network
                        within the service area were able to provide all of the specialized types
                        of medical services that the 47 resigning health care providers could
                        have provided. The withdrawal of the 47 health care providers would
                        not have prevented Westinghouse employees from obtaining needed
                        medical services within the service area.

                        The additional costs were unreasonable because they exceeded the rates
                        that BC/BS paid other health care providers in the area. Westinghouse
                        selected BC/BS as its health care administrator partly based on its
                        expertise at establishing reasonable compensation rates for health care
                        providers. BC/BS defined reasonable compensation for the health care
                        providers in its preferred provider network in South Carolina. All health
                        care providers in the BC/BS preferred provider network, except for the
                        47 who submitted their resignations, agreed to accept those rates as
                        reasonable compensation for their services.

Westinghouse Did Not    Westinghouse agreed to pay higher rates to Aiken-area health care
Want Its Employees to   providers because it did not want its employees to pay more for health
be Inconvenienced       care providers' services, and it did not want employees to spend
                        additional time away from work while traveling outside Aiken for
                        medical care.

                        Westinghouse’s Benefits Administration Division was concerned that if
                        enough health care providers resigned from the BC/BS preferred
                        provider network, some specialties might not be practiced by BC/BS
                        preferred providers within the service area. That could cause some
                        employees to use specialists outside the network, who might charge the
                        employees amounts that exceed BC/BS rates. If so, the employees
                        might be required to pay the health care providers for the difference
                        between the BC/BS rate and the billed amount. However, the 16
                        specialties practiced by the 47 health care providers who submitted their
                        resignations were readily available in the Aiken/Augusta area. All of the
                        specialties were practiced by BC/BS preferred health care providers in
                        the Augusta area. Also, seven of the specialties were practiced by other
                        BC/BS preferred health care providers in the Aiken area.




Page 3                                                                       Details of Finding
                         Westinghouse’s Benefits Administration Division was also concerned
                         that its employees might spend more time away from work if they
                         traveled to Augusta for medical care. However, the difference in
                         commuting time is negligible. For example, it takes about 27 minutes
                         to commute from the A area of the Savannah River Site to the Aiken
                         Regional Medical Centers. It takes only 3 minutes more to commute
                         to a BC/BS preferred provider hospital in Augusta, Georgia.
                         Nevertheless, several Aiken employees' spouses and family members
                         would have to travel about 20 extra miles to and from Augusta for
                         medical care.

                         In addition to the concern for employees, Westinghouse’s Benefits
Westinghouse Was
                         Administration Division was also concerned about the financial
Concerned About the
                         viability of the Aiken Regional Medical Centers. If a significant
Aiken Regional Medical
                         number of the physicians on the Aiken Regional Medical Centers'
Centers                  staff stopped participating in the BC/BS preferred provider network,
                         more of Westinghouse’s employees would be admitted for treatment
                         to other preferred provider hospitals. This potential reduction in
                         patient admissions might reduce Aiken Regional Medical Centers'
                         revenues to the point where it was economically threatened.

                         However, of the 47 health care providers who submitted their
                         resignations from the BC/BS preferred provider program, 7 were
                         nurse anesthetists, 3 were pathologists, and 3 were anesthesiologists.
                         These 13 health care providers did not admit patients; therefore, the
                         Aiken Regional Medical Centers were not dependent upon them for
                         admissions. The patients who would have been admitted by the
                         remaining 34 health care providers who threatened to resign might
                         still have been admitted to the Aiken Regional Medical Centers,
                         regardless of the health care providers' status in the BC/BS plan.
                         Therefore, we believe any potential impact on the Aiken Regional
                         Medical Centers would have been minimal.

                         As a result of the higher rates paid to Aiken-area health care
Department Will Incur    providers, the Department will incur, over a 3-year period, about $1.7
$1.7 Million in          million in health benefit costs that are unnecessary and unreasonable.
Unnecessary Costs        Had Westinghouse not intervened, agreeing to pay higher rates to
                         Aiken-area preferred providers, some Westinghouse employees and
                         their families would have obtained medical care from out-of-network
                         physicians or from preferred providers outside the Aiken area. In
                         either of these scenarios, the cost of health benefits for those
                         employees and their families could have increased. Our estimate of


Page 4                                                                      Details of Finding
                      unnecessary costs includes the additional cost to the Department
                      assuming the worst-case scenario, wherein all patients of the health care
                      providers who submitted their resignations would have obtained their
                      medical services from non-network providers.

                      We recommend that the Manager, Savannah River Operations Office (1)
RECOMMENDATIONS
                      recoup health benefit costs that are incurred under Westinghouse's
                      contract with BC/BS and determined to be unallowable by the
                      Contracting Officer, and (2) limit future reimbursements for health
                      benefits to the standard BC/BS rates.

                      Management did not concur with the finding or Recommendation 1.
MANAGEMENT REACTION
                      Management did not consider any of the health benefit costs paid by
                      Westinghouse to be unnecessary or unreasonable. Management did
                      concur with Recommendation 2, however, stating that reimbursements
                      for health benefits would be limited to the standard BC/BS rates and
                      agreements in South Carolina and Georgia beginning January 1, 2000.

                      Management stated that the reason it did not concur with the finding or
                      Recommendation 1 was because neither the Department nor
                      Westinghouse foresaw the consequences of BC/BS implementing its
                      standard reimbursement schedule with the Aiken doctors. Management
                      stated that the reasonableness of a cost under Westinghouse’s contract is
                      governed by Federal Acquisition Regulation (FAR) 31.201-3. The FAR
                      provides, “a cost is reasonable if, in its nature and amount, it does not
                      exceed that which would be incurred by a prudent person in the conduct
                      of competitive business… What is reasonable depends upon a variety of
                      considerations and circumstances, including… (3) The contractor’s
                      responsibilities to the Government, other customers, the owners of the
                      business, employees and the public at large… ” Conversely, for a cost to
                      be unallowable, it must fail these tests. In this particular case, it is
                      extremely difficult to conclude Westinghouse’s actions were
                      unreasonable and unallowable. After considering the state of morale of
                      its employees, the adverse community impact which had already resulted
                      from the downsizing activities of the site, the impending threat of more
                      downsizing activities, the dollars the Department had spent to help
                      mitigate the downsizing impacts on the local community through its
                      Worker and Community Transition Program, and that Westinghouse had
                      inadvertently created a situation in the entire community, Westinghouse
                      decided to intervene.
                      The withdrawal of the doctors from the BC/BS network not only



Page 5                                                  Recommendations and Comments
                   affected the finances and morale of Westinghouse employees, it also
                   adversely affected the employees (and their families) of all other local
                   companies who were BC/BS subscribers (including even Savannah
                   River Federal employees who were BC/BS subscribers.) The
                   Westinghouse selection of BC/BS as its administrator eventually led to
                   the Aiken Regional Medical Centers ceasing to be part of the BC/BS
                   network for BC/BS members other than Westinghouse employees.
                   What started as an effort by Westinghouse to save administrative
                   processing costs for health benefits ultimately generated a situation
                   impacting the entire local community.

                   Additionally, management stated that it could not find fault with the
                   actions taken by Westinghouse to resolve problems related to the
                   implementation of the BC/BS standard reimbursement schedule under
                   the circumstances that existed at the time and the totality of the issues
                   involved. Management stated that the morale of Westinghouse
                   employees was at an all time low. The threat of layoffs in early 1997
                   was a high probability, and over 300 managerial positions were being
                   competed among Westinghouse's employees and employees of the new
                   companies involved in the contract. Also, Westinghouse had advised
                   its employees that their health care contributions would increase
                   effective January 1, 1997.

                   Finally, management stated that it would advise Westinghouse to
                   formally engage the Department whenever actions are required in
                   relation to unusual or precedent setting situations, or whenever the
                   issue is likely to generate significant Congressional, employee, or public
                   interest. Management stated that the BC/BS situation would clearly
                   have met these criteria.

                   We recognize that Westinghouse did not expect 47 health care
                   providers to submit their resignations from the BC/BS preferred
AUDITOR COMMENTS   provider network, and that employee morale was probably low at the
                   time the BC/BS contract was awarded. Nevertheless, Westinghouse
                   should not have intervened in the resolution process between BC/BS
                   and its preferred providers. The resignation of 7 percent of the BC/BS
                   providers in the Aiken/Augusta area would have affected only a small
                   number of Westinghouse employees, many of whom would have
                   chosen other preferred providers in the area. We consider the cost to
                   be unreasonable because, in our opinion, a prudent person in a
                   competitive business would not have intervened and directed BC/BS to
                   meet the 47 providers' demands.
                   When Westinghouse selected BC/BS as its administrative service
                   contractor, it should have known that the new contract would
Page 6                                               Recommendations and Comments
         significantly reduce reimbursements to health care providers in the area.
         The BC/BS provided Westinghouse with its current standard rates
         during contract negotiations. Westinghouse should have determined
         that the BC/BS rates were significantly lower than those used under the
         Aetna Insurance contract.

         We agree that Westinghouse should formally engage the Department
         whenever similar actions are determined to be required in the future.
         Had Westinghouse fully engaged the Department in the BC/BS case,
         we believe the Department would have prevented Westinghouse from
         intervening in the determination of preferred provider reimbursement
         rates.

         We consider management’s intention to limit future reimbursements
         for health benefit costs to the standard rates set by BC/BS to be
         responsive to Recommendation 2.




Page 7                                    Recommendations and Comments
Appendix

SCOPE         The audit was performed from July 23, 1998, through October 2, 1998,
              at the Savannah River Site and the offices of BC/BS in Columbia, South
              Carolina.

METHODOLOGY   To accomplish the audit objective, we:

              • Reviewed Federal regulations governing reasonable and allowable
                costs;

              • Reviewed the Department's contract with Westinghouse;

              • Visited BC/BS to determine health care providers' fees in the
                Aiken-area;

              • Evaluated Westinghouse's payments for services provided by health
                care providers in the Aiken-area for CY 1997; and

              • Determined the increases in health care providers' fees paid under the
                modified agreement in CY 1997 and estimated the amount of
                unnecessary costs to be paid under the modified agreement in
                CYs 1998 and 1999.


              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, we assessed
              Westinghouse’s internal controls over the increased charges. Because
              our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of the
              audit.

              We relied on computer-generated data provided by BC/BS regarding
              fees for services provided by Aiken-area health care providers. We did
              not evaluate general and application controls for the BC/BS database.
              Our estimate of unnecessary costs is qualified, accordingly.




Page 8                                                      Scope and Methodology
                                                                                IG Report No.: ER-B-99-03

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
